IN THE SUPREME COURT OF THE UNITED STATES
No.

MICHAEL A. WILLNER AND
MARGUERITE EVANS WILLNER
Petitioners,
v.
JAMES DIMON, et al.
Respondents.

CERTIFICATE OF COMPLIANCE WITH RULE 33.1(g)

We, Michael A. Willner and Marguerite Evans Willner, Petitioners, pro se,
hereby certify that, according to the word-count tool in Microsoft Word, the Brief of
Michael A. Willner and Marguerite Evans Willner, Petitioners consists of 3,809
words, including footnotes and excluding the sections enumerated by Rule 33.1(d).
The Brief therefore complies with Rule 33.1(g).
We declare under penalty of perjury that the foregoing is true and correct.
Executed on July 15, 2019.

(a/uHiuA
Michael A. Willner
Marguerite Evans Willner
Pro Se Petitioners
11521 Potomac Road
Lorton, VA 22079
(703) 489-0913
mikewillnerl@gmail.com

RECEIVED
JUL 1 5 2019
OFFICE OF THE CLERK
SUPREME COURT, U.S.

